      Department of Homeland Security




      Costs Incurred by Volunteer Fire and Rescue
          of Harrison Township, IN, Under Station
    Construction Grant Number EMW 2009 FC 06054R




            American Recovery and Reinvestment Act of 2009



OIG-13-01                                                    October 2012

               a·
                It""..,,t'-1...   OFFICE OF INSPECTOR GENERAL
                                      Department or Homeland Security
                                    Washington, DC 20528 1 www.oig.dhs.gov


                                               OCT 11 2012
MEMORANDUM FOR:                     Elizabeth M. Harman
                                    Assistant Administrator
                                    Grant Programs Directorat e
                                    Federa l Emergency Maja gfment A?,Y

FROM:                               Ann e L. Richards   ~r           bt1f.:J
                                    Assistant Inspector Ge era l for Aud its

SUBJECT:                            Costs Incurred by Volunteer Fire and Rescue of Harrison
                                    Township, IN, Under Stat ion Construction Gran t Number
                                    EMW-2009-FC-060S4R

Attached for you r information is our fin al letter report, Costs Incurred by Volun teer Fire
and Rescue of Harrison Township, IN, Under Station Construction Grant Number EMW-
2009-FC-06054R. Since the report contains no recom mend ations to Federal Emergency
Management Agency officials, we did not solicit forma l co mm ents.

Consistent with our responsibility under th e Inspector General Act, we are providing
cop ies of our report to app ropriate congressional committees w ith ove rsight and
appro priation responsibility over th e Department of Hom eland Security. We will post
the report on our website for public dissemination.

Major contributors to this report are Roger LaRou che, Audit Director; Matthew Mongin,
Au dit Man ager; and Robert Greene and Katrin a Bynes, Report Referencers.

Please call me with any qu estion s, or your staff may contact John E. McCoy II, Deputy
Assistant Inspector General for Audits, at (202) 254-4100.

Attachm ent
                            OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


   Background
   The Federal Emergency Management Agency (FEMA) requested that we audit the grant
   (EMW-2009-FC-06054R) to Volunteer Fire and Rescue of Harrison Township (Fire and
   Rescue). FEMA asked for the audit to help resolve concerns over delays by Fire and
   Rescue in initiating the project and allegations about the size and location of the
   project and the award of construction contracts.

   Fire and Rescue requested and received a grant of $1,149,490 for construction of a new
   fire station. The grant specified a period of performance from September 25, 2009, to
   September 24, 2012. As of January 23, 2012, Fire and Rescue had broken ground for
   the new station and had incurred costs of $76,591 for plans, building materials, and
   other initial project costs. Fire and Rescue has billed for and received from FEMA
   reimbursement of $10,000.

   Under the terms of the grant, Fire and Rescue agreed to use the grant funds according
   to FEMA’s American Reinvestment and Recovery Act, Assistance to Firefighters, Fire
   Station Construction Grants, Guidance and Application Kit (Guidance and Application
   Kit), and to comply with Office of Management and Budget (OMB) Circular A-87,
   Revised, Cost Principles for State, Local and Indian Tribal Governments (2 CFR Part 225),
   and the Uniform Administrative Requirements for Grants and Cooperative Agreements
   to State and Local Governments in the Code of Federal Regulations (44 CFR Part 13).

   The grant also includes requirements for complying with OMB Circular A-133, Audits of
   States, Local Governments, and Nonprofit Organizations, and American Reinvestment
   and Recovery Act (Recovery Act) provisions for submitting quarterly recipient reports to
   the Federal Government on the use of Recovery Act funds; paying prevailing wages as
   determined by the Secretary of Labor; and using American-made iron, steel, and
   manufactured goods. The objective of this audit was to determine whether costs
   incurred by Fire and Rescue were allowable, allocable, and reasonable according to the
   grant agreement and applicable Federal requirements. In doing so, we also examined
   information concerning the allegations.

   Fire and Rescue is located in a rural section of Morgan County, Indiana, about 20 miles
   south of Indianapolis. It has operated since the early 1960s, and provides mostly fire
   suppression and river rescue along the White River. It operates from an old (1850s)
   dairy barn that was converted into a fire station. One of its firemen gave the barn and
   surrounding land to Fire and Rescue in 1969. In 1987, the same fireman’s family gave
   Fire and Rescue an adjacent parcel of land, which is now the site of the new fire
   station. Access to the new station is through the land on which the old station was
   built.


www.oig.dhs.gov                                 2                                      OIG-13-01
                                OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security




   Results of Audit
   We determined that costs of $76,591 incurred for initial project activities were
   reasonable, allocable, and allowable for reimbursement. In addition, we found that
   issues concerning the size of the building have been resolved. Morgan County issued a
   building permit for the new station, and Fire and Rescue awarded contracts according
   to applicable construction requirements. We also verified that Fire and Rescue
   submitted quarterly status reports to the Federal Government and included provisions
   in its construction contracts for paying prevailing wages and for using American-made
   iron, steel, and manufactured goods in construction of the project.

   Incurred Costs

   As of January 23, 2012, Fire and Rescue had incurred costs of $76,591 for architect and
   engineering fees, soil and site surveys, permits, and building materials. We determined
   that these purchases were approved by Fire and Rescue, supported by invoices and
   other documents, separately recorded in the accounting records,1 and incurred for
   eligible project activities.

   Size and Status of the New Fire Station

   We examined the concerns over the size and status of the new station and obtained
   the following information:

   •	 Fire and Rescue’s grant application states that the new fire station will be
      7,100 square feet, but the plans submitted to FEMA show a structure of
      23,600 square feet. The Chief said that he misread the question in the grant
      application and thought that it referred to the size of the existing fire station. He
      advised that FEMA has all of the building plans and fully understands the planned
      size of the new building. A FEMA representative agreed.

   •	 Construction of the new fire station is a controversial issue in Harrison Township,
      according to Morgan County officials. The Planning Commission Director told us
      that some residents want the new station and others are concerned that a new

   1
    Fire and Rescue maintains its own accounting records and relies on a local audit committee composed
   of Harrison Township residents and Fire and Rescue volunteers to oversee the accuracy of this process.
   None of the participants are accounting professionals. We advised the Chief of Fire and Rescue to
   consider the services of a Certified Public Accountant to ensure that its accounting procedures and
   records are maintained in conformance with Indiana regulations for not-for-profit organizations. We
   also explained to the Chief the audit requirements specified in OMB Circular A-133.


www.oig.dhs.gov                                       3	                                             OIG-13-01
                             OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


       station will lead to development and a change of lifestyle in this section of the
       county. He advised us that the Morgan County Planning Commission held three
       public meetings on the building permit for the new fire station through December
       2011, without issuing a permit.

   •	 The Planning Commission Director also told us that three issues needed to be
      resolved before the Planning Commission would issue a building permit for the new
      station. First, title to the land was in question because of the different fire
      department names on the records of title for the two adjacent parcels. The parcel
      where the old station is located was given to the Waverly Volunteer Fire
      Department, and the parcel where the new station is being built is owned by Fire
      and Rescue. The Fire Chief provided Morgan County a recorded Warranty Deed
      showing that Fire and Rescue owns both parcels of land free and clear. Second, a
      variance was needed to allow the new station to be built within the 25-feet lot line
      setback. The Planning Commission approved the variance on January 25, 2012.
      Finally, Fire and Rescue needed to pay a permit fee. The Director told us that the
      Planning Commission waived the permit fee on January 25, 2012. With these issues
      resolved, the Planning Commission issued a building permit on January 25, 2012.

   •	 The Fire Chief told us that the State construction design release approval, which is
      needed before public buildings can be constructed in Indiana, lapsed while building
      permit issues were being resolved. The State Plan Review Division reissued the
      construction design release on January 23, 2012, and the Morgan County Building
      Department accepted it.

   Contracts for the New Fire Station

   Fire and Rescue acted as the general contractor on the project, solicited bids, and
   awarded 12 contracts for a total of $910,984. We reviewed procurement documents
   for the bid process and the award of the 12 fire station construction contracts listed in
   table 1, and determined that Fire and Rescue competitively awarded the contracts
   according to Fire and Rescue Purchasing Policies and Federal requirements.




www.oig.dhs.gov                                 4	                                      OIG-13-01
                              OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security



   Table 1: Contracts Awarded by Fire and Rescue for Construction of the New Fire
   Station

                                     Award
    No.          Company            Amount                               Activity
    1     Spiker Construction Inc   $506,566    Excavation and concrete footers, slabs, and forms
    2     Martin Marietta Inc.         12,500   Gravel
    3     General Shale Inc.           22,128   Block retaining walls, brick
    4     Beaver Material Inc.        170,000   Concrete
    5     Majestic Block                2,800   Type N mortar
    6     Johnson Construction         34,300   Lay brick and install ceiling, lockers, cabinets
    7     Marteen Masonary             17,500   Apply brick and limestone
    8     Menards                      20,517   Metal studs, drywall, tape, compound
    9     John Johnson                 14,000   Install doors
    10    Premier Fab                  32,000   Build and install stairs
    11    Franklin Engineering          4,000   Range hood
    12    HoldFast                     74,673   Insulated Concrete Form and removal
          Total                     $910,984

   Compliance With Requirements for Reporting, Buying American, and Paying
   Prevailing Wages

   The Recovery Act requires grant recipients to submit quarterly reports on project
   activities to the Federal Government. The Recovery Act also stipulates that grantees
   use American-made iron, steel, and manufactured goods, and that workers be paid
   prevailing wages as determined by the Secretary of Labor. We verified that Fire and
   Rescue submitted the required quarterly reports, although some were submitted late.
   In addition, we confirmed that Fire and Rescue included the prevailing wage
   requirement in its public solicitation for construction bids, and the Fire Chief told us
   that he explained to bidders the requirement to use American-made materials. Both
   requirements were included in all construction contracts.




www.oig.dhs.gov                                  5                                         OIG-13-01
                          OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


Appendix A
Objectives, Scope, and Methodology
The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the Department.

The objective of this audit was to determine whether costs incurred were allowable,
allocable, and reasonable according to the grant and applicable Federal requirements.
We also examined information concerning the allegations about the size and status of
the new station and the award of contracts.

This audit covered costs of $76,591 incurred by Fire and Rescue from January 2010
through December 2011. In conducting our audit, we—

•	 Obtained and reviewed the Recovery Act, the grant application and award, the grant
   Guidance and Application Kit, and Federal cost principles and grant administrative
   requirements;

•	 Interviewed Fire and Rescue personnel to gain an understanding of their accounting
   system, applicable internal controls, and project status and issues;

•	 Reviewed the recipient’s internal controls specifically related to our objectives;

•	 Examined vendor invoices and other evidence supporting 100 percent of costs
   incurred and claimed for FEMA reimbursement;

•	 Reviewed accounting transactions related to purchases, payments, and receipt of
   FEMA reimbursements;

•	 Used the grant provisions and applicable Federal requirements to determine
   whether amounts claimed were eligible for reimbursement;

•	 Performed fraud detection procedures;

•	 Spoke with Morgan County officials to obtain information on planning and
   permitting related to new fire station construction; and




www.oig.dhs.gov	                                6                               OIG-13-01
                            OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   •	 Interviewed owners of property adjacent to the new fire station to discuss and
      evaluate their allegations about the construction project.

   We conducted this performance audit between January and June 2012, pursuant to the
   Inspector General Act of 1978, as amended, and according to generally accepted
   government auditing standards. Those standards require that we plan and perform the
   audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
   findings and conclusions based upon our audit objectives. We believe that the evidence
   obtained provides a reasonable basis for our findings and conclusions based upon our
   audit objectives.




www.oig.dhs.gov                               7	                                       OIG-13-01
                           OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security



Appendix B
Report Distribution
Department of Homeland Security

Secretary
Deputy Secretary
Chief of Staff
Deputy Chief of Staff
General Counsel
Executive Secretariat
Director, GAO/OIG Liaison Office
Assistant Secretary for Office of Policy
Assistant Secretary for Office of Public Affairs
Assistant Secretary for Office of Legislative Affairs
Acting Chief Privacy Officer
Departmental Recovery Act Coordinator

Federal Emergency Management Agency

Administrator
Assistant Administrator, Grant Programs Directorate
Audit Liaison Official

Office of Management and Budget

Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress

Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                   8                     OIG-13-01
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
